CERTIFICATE OF SERVICE
No. 19-1371
IN THE
SUPREME COURT of the UNITED STATES

ROGER DEAN WALDNER,
Petitioner,
v.

BRADLEY R. HARTKE; DOUGLAS P. HARTKE; JOAN L. HARTKE,
INDIVIDUALLY AND AS TRUSTEES OF THE JOAN L. HARTKE QTIP MARITAL
TRUST DATED 7/12/1996 AND AS TRUSTEES OF THE ROBERT EUGENE
HARTKE FAMILY TRUST DATED 7/12/1996; THE JOAN L. HARTKE QTIP
MARITAL TRUST DATED 7/12/1996; THE ROBERT EUGENE HARTKE FAMILY
TRUST DATED 7/12/1996,
Respondents.
In accordance with this Court’s Order of Wednesday, April 15, 2020,1 certify
that, On October 29, 2020,1 served by email a true and correct copy of the petition
for a rehearing, certificate of compliance, and certificate of good faith on the
attorneys for the Respondents at the email address below. I declare under penalty
of penury that the foregoing is true and correct.
Executed on October 29, 2020

Roger Dean Waldner
uspstracking# 9114 9999 4431 4561 8547 03
a CUSTOMER

RECEIPT
David W. Larson, # 60495
John Paul Martin, # 68068
332 Minnesota Street, Suite W2750
St. Paul, MN 55101
Email: dwlarson@martinsauires.com

Telephone: (651) 767-3740
ATTORNEYS FOR RESPONDENTS

For Tracking or inquiries go to USPS.com
or call t-800-222-1811.

